<html>
<title> - [H.A.S.C. No. 112-47]TEN YEARS ON: THE EVOLUTION OF THE TERRORIST THREAT SINCE 9/11</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-47]

 
     TEN YEARS ON: THE EVOLUTION OF THE TERRORIST THREAT SINCE 9/11

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 22, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
67-395                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHY CASTOR, Florida
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, June 22, 2011, Ten Years On: The Evolution of the 
  Terrorist Threat Since 9/11....................................     1

Appendix:

Wednesday, June 22, 2011.........................................    25
                              ----------                              

                        WEDNESDAY, JUNE 22, 2011
     TEN YEARS ON: THE EVOLUTION OF THE TERRORIST THREAT SINCE 9/11
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Johnson, Hon. Hank, a Representative from Georgia, Subcommittee 
  on Emerging Threats and Capabilities...........................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Bergen, Peter, Director, National Security Studies Program, New 
  America Foundation, Author of ``The Longest War: The Enduring 
  Conflict Between America and Al Qaeda''........................     4
Gorka, Dr. Sebastian, Assistant Professor of Irregular Warfare, 
  National Defense University....................................     6
Jenkins, Brian Michael, Senior Advisor, RAND Corporation.........     2

                                APPENDIX

Prepared Statements:

    Bergen, Peter................................................    43
    Gorka, Dr. Sebastian.........................................    65
    Jenkins, Brian Michael.......................................    30
    Langevin, Hon. James R.......................................    29

Documents Submitted for the Record:

    ``Who's Winning the Battle for Narrative? Al-Qaida versus the 
      United States and its Allies,'' co-authored by Sebastian 
      Gorka and David Kilcullen, in ``Influence Warfare: How 
      Terrorists and Governments Fight to Shape Perceptions in a 
      War of Ideas,'' edited by James J.F. Forest................    79

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Thornberry...............................................    93
    Mr. Wittman..................................................    95
     TEN YEARS ON: THE EVOLUTION OF THE TERRORIST THREAT SINCE 9/11

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Wednesday, June 22, 2011.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    Tonight the President will announce a schedule for 
withdrawals of U.S. troops from Afghanistan, an engagement that 
started nearly 10 years ago. Ten years after the Twin Towers 
fell and the Pentagon was assaulted and heroes in the skies 
above Pennsylvania prevented the Capitol from being struck, 
Americans are still battling terrorists around the world, here 
at home, and in cyberspace, and we are still debating what we 
need to do to prevent further attacks.
    With the approach of that 10-year mark and with the removal 
of Osama bin Laden, it seems to me to be appropriate to try to 
step back and look at the course of the last decade, analyze 
whether and how the threat to us and our interests have 
changed, and thereby try to gain some perspective on where we 
need to go from here.
    The subcommittee has assembled a first-rate panel to help 
guide our inquiry today. Unfortunately, it is also a day in 
which Members and witnesses are being pulled in a variety of 
directions. And I appreciate very much everybody's flexibility 
to try to start a little earlier so that, hopefully, we can 
have as much opportunity as we can before votes.
    I do recommend that all of the Members and guests read the 
written testimony submitted by each of the witnesses. But in 
due course, I am going to ask them to summarize their 
statements so we can get into questions and discussions in the 
course of the time we have before us today.
    So, with that, let me yield to Mr. Johnson for the ranking 
member.

STATEMENT OF HON. HANK JOHNSON, A REPRESENTATIVE FROM GEORGIA, 
       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

    Mr. Johnson. Thank you, Chairman Thornberry, for hosting 
this very timely hearing.
    And thanks to our panel for joining us. I am looking 
forward to your testimony.
    And I will ask that we reserve the ability of Ranking 
Member Langevin to make comments when he arrives. And I would 
ask that his written statement be placed in the record, without 
objection.
    Mr. Thornberry. Without objection, it is so ordered.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 29.]
    Mr. Thornberry. And I would also ask unanimous consent that 
other members of the committee be allowed to participate in 
today's hearing after all subcommittee members have had an 
opportunity to ask questions. And, without objection, they will 
be recognized at the appropriate time.
    So, again, let me thank our witnesses for being here.
    We are privileged to have Mr. Brian Michael Jenkins, senior 
advisor at RAND Corporation; Mr. Peter Bergen, who is director 
of national security studies at New America Foundation and also 
author of ``The Longest War''; and Dr. Sebastian Gorka, 
assistant professor of irregular warfare, National Defense 
University.
    So, if I could, let me turn to you all in that order for 
the summary of your statement.

   STATEMENT OF BRIAN MICHAEL JENKINS, SENIOR ADVISOR, RAND 
                          CORPORATION

    Mr. Jenkins. Chairman Thornberry, Mr. Johnson, members of 
the committee, thank you for giving me the opportunity to talk 
to you about this important topic.
    In my written testimony, I outline Al Qaeda's terrorist 
campaign since its inception. Let me here just summarize, to 
note that in the past 10 years we have seen Al Qaeda move from 
large-scale, centrally directed terrorist attacks to increasing 
emphasis on individual jihad and do-it-yourself terrorism.
    Now, this is an indication that we have made considerable 
progress in the past 10 years. Al Qaeda's operational 
capabilities have clearly been degraded. But we haven't dented 
its determination one bit. Nor does the death of bin Laden end 
Al Qaeda's global terrorist campaign. Indeed, the reported 
elevation of Ayman al-Zawahiri as his successor suggests that 
bin Laden's focus on attacking the United States will continue 
after his death. But Al Qaeda today has less capability to 
mount another attack on the scale of 9/11, although caution is 
always in order. Small groups can still be lethal.
    The Arab Spring, in my view, demonstrates the irrelevance 
of Al Qaeda's ideology. However, Al Qaeda benefits from the 
current chaos in these countries. And the latest news from 
Yemen is that there was just a major jailbreak in that country, 
which resulted in the escape of a number of Al Qaeda in the 
Arabian Peninsula [AQAP] members. And if these revolutions are 
crushed or produce no change, then Al Qaeda certainly will find 
new recruiting space.
    As I mentioned, Al Qaeda has embraced individual jihadism 
and do-it-yourself terrorism. This is a change from its initial 
centralized strategy, and it reflects the organization's 
current realities. The threat now is much more decentralized, 
much more diffused. But their objective remains to bankrupt 
America's already weakened economy with continued at least low-
level attacks. That is going to depend heavily on their ability 
to recruit homegrown terrorists, but thus far, fortunately, 
exhortations to join its violent jihad have yielded meager 
results among American Muslims.
    I agree that a 10-year time period is an appropriate time 
for a review. As Al Qaeda has evolved, so must American 
strategy. Here are some just basic principles.
    First, Al Qaeda and its affiliates remain the primary 
target of America's counterterrorist campaign. Although 
weakened, the jihadist movement still poses a threat. Left 
unmolested, it will pursue its campaign. War weariness, 
economic restraints, the death of bin Laden must not be allowed 
to erode the unprecedented worldwide cooperation among 
intelligence services and law enforcement organizations that 
has reduced Al Qaeda's capability to mount large-scale attacks.
    How things turn out in Afghanistan remains critical to the 
future trajectory of the conflict, but creating a national army 
and a national police force in Afghanistan able to effectively 
secure the country will take longer than the United States is 
willing to sustain current troop levels.
    But this is not just about numbers. We really should 
examine ways we can reconfigure our efforts. The challenge is 
how to deprive Al Qaeda and its allies of safe havens without 
the United States having to fix failed states. We may be 
chasing Al Qaeda for decades. Therefore, what we do at home and 
abroad must be sustainable.
    We can't eliminate every vulnerability. Efforts should 
focus on developing less burdensome ways to maintain current 
security levels. We should also move toward risk-based security 
rather than pretending that we can prevent all attacks. And 
Americans, themselves, must be realistic about security and 
stop overreacting to even failed terrorist attempts.
    The threat of homegrown terrorism is real, but it shouldn't 
be exaggerated. The tiny turnout of jihadist recruits suggests 
that America remains a country where immigrants successfully 
assimilate into the life of our communities. American Muslims 
are not America's enemies. But domestic intelligence collection 
and community policing are essential, especially as Al Qaeda 
places more emphasis on inspiring local volunteers to take 
action.
    In sum, we have greatly reduced Al Qaeda's capacity for 
large-scale attacks, but at great expense. But the campaign led 
by Al Qaeda may go on for many years. It is time for a 
fundamental and thoughtful review of our effort. We have gone 
big; we need to go long.
    Thank you.
    [The prepared statement of Mr. Jenkins can be found in the 
Appendix on page 30.]
    Mr. Thornberry. Thank you.
    Mr. Bergen.

STATEMENT OF PETER BERGEN, DIRECTOR, NATIONAL SECURITY STUDIES 
 PROGRAM, NEW AMERICA FOUNDATION, AUTHOR OF ``THE LONGEST WAR: 
      THE ENDURING CONFLICT BETWEEN AMERICA AND AL QAEDA''

    Mr. Bergen. Thank you, Chairman Thornberry and Mr. Johnson 
and other members of the committee.
    We were asked to look at today's threat and how the threat 
has changed and what to do about it. So, in the 5 minutes I 
have, I will try and summarize.
    I, you know, concur with pretty much everything that Mr. 
Jenkins just said. The threat is much reduced. Al Qaeda's 
capability to do a 9/11-style attack on the United States is 
extremely constrained.
    The Maxwell School at Syracuse University and New America 
Foundation looked at 183 jihadist terrorism cases since 9/11, 
as defined by individuals or groups motivated by anti-American 
beliefs who are in this country. Of those 186 cases, there was 
quite a lot of good news and some bad news.
    The good news is, not one of those cases involved a 
chemical, biological, radiological, or nuclear plot, which is 
pretty surprising, in a sense, if you think about how concerned 
we were about that eventuality after 9/11.
    Secondly, there was a real uptick in these cases in the 
2009-2010 time period; there were 76 cases. However, there has 
been a sharp dip in 2011, with only eight cases. So the 
question before all of us is, in a sense, was 2009-2010 sort of 
an outlier or part of a larger pattern?
    Mr. Jenkins referred to the relatively small threat of 
domestic jihadist terrorism, and I agree with that. But, 
clearly, there was something happening in 2009 and 2010 which 
was a little bit different. Part of the reason that you saw a 
big increase in plots was a large number of Somali Americans 
planning to go to Somalia, or actually going to Somalia, who 
were charged in cases relating to Al-Shabaab.
    Another piece of good news in all of this is that, of these 
186 individuals, only 4 actually carried out any attack, the 
most famous being, of course, the Fort Hood, Texas, attack, 
which I am sure is very familiar to members of this committee, 
which killed 13 people. There were three other attacks, which 
killed four people. So, since 9/11, only 17 Americans have been 
killed by jihadist terrorists in the past 10 years. Again, I 
think that would have been something that would not have been 
expected if we had had this conversation a couple of years 
after the 9/11 attacks.
    So, much that has happened, both, you know, what the U.S. 
Government has done and Al Qaeda's own weaknesses, has made us 
relatively much safer.
    How does the death of bin Laden play out in all this, and 
what effect does it have? And I would say that the effect--if 
everybody in this room collectively came together and came up 
with a better plan to sabotage Al Qaeda, it would be hard to 
come up with the Arab Spring and bin Laden's death happening 
within several months of each other. Between these two events, 
Al Qaeda's ideology has taken a pretty massive, you know, blow. 
And Al Qaeda, the organization, which was founded and led by 
bin Laden, has also taken a pretty massive blow.
    When you joined the Nazi party, you didn't swear an oath of 
allegiance to Nazism; you swore a personal oath of allegiance 
to Adolf Hitler. Similarly, when you joined Al Qaeda, you swore 
a personal oath of allegiance to bin Laden. Ayman al-Zawahiri, 
as Mr. Jenkins has pointed out, has officially taken over. But 
this is very good news, I think, for the United States. Ayman 
al-Zawahiri will drive what remains of Al Qaeda into the 
ground. He is neither charismatic nor an effective leader, 
whose leadership of even the Egyptian jihadist militant groups 
of which he was once part is contested. And just as the death 
of Abu Musab al-Zarqawi dealt a pretty big blow to Al Qaeda in 
Iraq, the people who replaced Abu Musab al-Zarqawi were not as 
effective leaders. So the fact that Ayman al-Zawahiri has taken 
over is a good thing.
    But even before the Arab Spring and the death of bin Laden, 
Al Qaeda was in very bad shape. It was losing the war of ideas 
in the Muslim world, not certainly because the United States 
was winning them, but because Al Qaeda was losing them, 
principally on the issue that Al Qaeda and its allies had 
killed so many Muslim civilians. For groups that position 
themselves as the defender of Islam, this was not impressive. 
And, you know, if you look at polling data in Indonesia, 
Morocco, Jordan, Saudi Arabia, Pakistan, pick your country, 
support for bin Laden and Al Qaeda suicide bombing has been 
dropping precipitously in the last several years.
    That said, how is the threat changing, which is the second 
question that we were asked to address. I think one of the most 
problematic parts of the threat that is changing is Al Qaeda's 
ability to infect other groups that don't call themselves ``Al 
Qaeda'' with its ideology, particularly in South Asia.
    To give you two obvious examples, the Pakistani Taliban, 
which was seen as a bunch of sort of provincial country 
bumpkins uninterested in anything other than Pakistan, sent 
suicide bombers to Barcelona in January of 2008, which should 
have been a canary in the mine, and then, of course, sent a 
suicide bomber to Times Square in May of 2010. So the Pakistani 
Taliban now are acting in a more Al Qaeda-like manner, a fairly 
large group of people.
    Similarly, Lashkar-e-Taiba, the group that focused on 
India, sought out American and Jewish targets in Mumbai in 
November of 2008. Again, a rather large group with quasi-
governmental support from the Pakistani Government. And I think 
that their change is concerning.
    And then, of course, the regional affiliates: Al Qaeda in 
the Arabian Peninsula, with which you are all familiar; Al-
Shabaab; Al Qaeda in Iraq; Al Qaeda in the Islamic Maghreb. The 
fortunes of these groups wax and wane.
    But one final point I wanted to make before this committee, 
because it directly affects your interests, is, going back to 
that survey of the 183 cases, jihadist terrorism cases, we 
found that the target of a third of those individuals was U.S. 
military personnel serving overseas or U.S. military bases. So, 
clearly, for individuals motivated by this ideology, American 
soldiers and American servicemen and servicewomen, involved in 
up to five wars in Muslim countries, are very tempting targets 
for these kinds of groups and individuals.
    [The prepared statement of Mr. Bergen can be found in the 
Appendix on page 43.]
    Mr. Thornberry. Thank you. I appreciate it.
    Doctor.

   STATEMENT OF DR. SEBASTIAN GORKA, ASSISTANT PROFESSOR OF 
         IRREGULAR WARFARE, NATIONAL DEFENSE UNIVERSITY

    Dr. Gorka. Thank you, Chairman Thornberry, Ranking Member 
Johnson, and the members of the subcommittee, for providing me 
this honor to testify before you on the vital issue of the 
evolution of the terrorist threat to the United States.
    I must start with the standard disclaimer that this 
testimony reflects my views and not necessarily those of the 
National Defense University, the Department of Defense, or any 
other organization or agency I am affiliated with.
    As you have already noted, Mr. Chairman, we are approaching 
the 10th anniversary of the September the 11th attacks, which 
resulted in the longest military campaign the United States has 
been engaged in since 1776. Despite the mastermind of that 
attack having been killed by our forces, the war is not over.
    In my testimony today, I have two core messages. The first 
is that, a decade after the events of September the 11th, 
America does still not fully understand the nature of the 
enemy. Secondly, that tactical successes do not necessarily 
lead to strategic victory.
    If I may address the second point first, it is clear that 
the operation in Abbottabad that led to the death of Osama bin 
Laden will, in decades to come, represent the textbook example 
of such a covert action on foreign soil. Nevertheless, to quote 
the quintessential strategist Sun Tzu, tactics without strategy 
is simply the noise before defeat. This was a tactically 
supreme operation but does not necessarily mean that we have 
won a strategic victory.
    To illustrate this point further, as you are all aware, one 
of the most popular official documents in the last 10 years was 
the Field Manual 3-24 on Counterinsurgency, reformed and 
rewritten under the aegis of General Petraeus. The fact that 
today, with the success of that counterinsurgency doctrine in 
Iraq and elsewhere, in Washington the phrase 
``counterinsurgency strategy'' is used every day, reflects the 
paucity of understanding of what we are doing. In fact, a 
cursory Internet search with the phrase ``counterinsurgency 
strategy'' will give you 300,000 hits, despite the fact that 
counterinsurgency always has and always will be a doctrinal 
approach and never a strategic one.
    Going on to the question of understanding the nature of the 
enemy, if I may share a personal anecdote with the members of 
the subcommittee. Several years into this war, I was asked with 
a colleague to address a group of assembled Special Operations 
officers on the war in hand and how things were going. This was 
a 3-day event at a relatively high level of 06.
    On the third day, when I rose to give my remarks, I was 
forced to tear up my speaking points and inform the officers, 
who really were risking their lives in this fight against Al 
Qaeda, that for 2\1/2\ days I had witnessed them debate whether 
the enemy was an organization, a network, a network of 
networks, an ideology, or a movement. This lack of clarity 
amongst our operators, which I have seen amongst other 
agencies, not just the Special Forces, is akin to us debating 
in 1944 what Nazism actually represents and what the Third 
Reich is. We didn't do it then; why are we doing it now?
    The plain matter of the fact, Mr. Chairman and Members, is 
that we have institutionally failed to meet our duty to become 
well-informed on the threat doctrine of our enemy. Without a 
clear understanding of the enemy threat doctrine, victory is 
likely impossible.
    The reasons for this lack of understanding are many, but 
they are guided also by the belief that the religious character 
of the enemy's ideology should not be discussed. This is one of 
the reasons why today in official circles we use the phrase 
``violent extremism.'' The fact is, we are dealing with a 
hybrid totalitarianism that depends very much on religious 
ideology to justify its violence.
    Secondly, there is the question of our institutional 
capacity to deal with the threat that we currently face. I 
would like to remind the subcommittee that the 9/11 
congressional commission described for us how very different 
the threat environment is. Today, we no longer live in a 
Westphalian threat environment, where the nation-state is the 
primary enemy. As Philip Bobbitt has noted, groups such as Al 
Qaeda, Al-Shabaab, or the Muslim Brotherhood do not fit neatly 
into the national security apparatus we built over the last 
hundred years.
    To paraphrase James Kiras of the Air University, we have 
denied Al Qaeda the capability to conduct complex, devastating 
attacks on the scale of September the 11th, but we now need to 
transition away from concentrating on dismantling and 
disrupting Al Qaeda's network to undermining its core strategy 
of ideological attack.
    To conclude, in the last 10 years since September the 11th, 
we can summarize our actions as a vast collection of tactical 
and operational successes occurring in a vacuum of strategic 
understanding and strategic response. We have failed to 
understand the enemy at any more than an operational level and 
have instead, by default, addressed that enemy solely on that 
operational plane of engagement.
    The 10th anniversary of the attacks here in Washington, in 
New York, and in Pennsylvania afford those of us in the U.S. 
Government who have sworn to uphold and defend the national 
interests of this greatest of nations a clear opportunity to 
recognize what we have accomplished and what needs to be 
reassessed.
    My wish would be that this hearing marked the beginning of 
that process, whereby we draw a line under our past efforts and 
begin anew to recommit ourselves to attacking the deadliest of 
enemies at the level which it deserves to be, and that must be, 
of course, the strategic.
    Osama bin Laden may be dead, but his ideology of global 
supremacy through religious war is more vibrant and sympathetic 
to audiences around the world than it was on September the 
10th, 2011.
    Thank you.
    [The prepared statement of Dr. Gorka can be found in the 
Appendix on page 65.]
    Mr. Thornberry. A little sobering, but thank you.
    But let me pick up with that and ask Mr. Jenkins and Mr. 
Bergen to respond to the idea that tactical success does not--
successes--does not necessarily translate into overall victory 
or strategic success.
    And, you know, you think back, not only the Osama bin Laden 
operation, but the fact that we have not had, other than Fort 
Hood, a particularly successful attack here in the homeland for 
10 years; a lot of success in various other places and efforts 
around the world. I think you mentioned that Al Qaeda is not 
necessarily well thought of, according to pollsters. Maybe that 
is a tactical success.
    But so does all of that add up to strategic victory, or are 
we still fooling ourselves in some way?
    Mr. Jenkins.
    Mr. Jenkins. Let me try to address that.
    There are two views about this. One is that if we can 
continue to disrupt Al Qaeda operations, if we can continue to 
protect the American homeland, that ultimately Al Qaeda will 
self-destruct. It will self-destruct in ways that Peter was 
outlining. That is, first of all, the biggest long-term threat 
to Al Qaeda is irrelevance. And as the world moves on, Al 
Qaeda, locked in its own little universe of extremist ideology, 
will become less and less relevant.
    And that is what makes the Arab Spring so important, 
because those people demonstrating in Tunisia and Egypt and 
elsewhere were not demonstrating on behalf of unending warfare 
against infidels or the re-establishment of an 8th-century 
caliphate; they were demonstrating for greater democracy, they 
were demonstrating for less corruption, for more opportunity. 
And that Al Qaeda, with its sole methodology of violence, that 
simply it will fade, and we should try to contain them as long 
as possible.
    Will that suffice in the long run to give us victory? First 
of all, the problem is, we have to put victory in quotes here, 
because what is victory here? This could go on for many, many, 
many years, and we are not going to have something that we can 
call a clearcut victory. But, nonetheless, it would be a 
success.
    Others believe--and there is a shortcoming here--that while 
we have, as Dr. Gorka has pointed out, we have pounded on their 
operational capabilities with some measure of success, we 
haven't adequately addressed the front end of this--that is, 
what is the appeal of this ideology? How do they manage to 
continue to inspire angry young men around the world to join 
with this?
    And one of the long-term dangers that we do face here is 
that the Al Qaeda ideology really transcends to simply becoming 
a conveyor for individual discontents. That is, anyone who is 
searching for meaning, unhappy with their condition, whatever, 
can find legitimization and direction within this ideology. 
Now, we could end up dealing with that kind of a diffused 
threat for many, many years.
    Mr. Thornberry. Mr. Bergen.
    Mr. Bergen. You know, there are still Marxist-Leninists on 
campuses somewhere in the United States; there just aren't very 
many of them. And so, you know, Marxism-Leninism as an idea has 
never fully died; there are just less takers. And that is where 
we are going to be with Al Qaeda.
    Mr. Jenkins mentioned the word ``irrelevance.'' I think 
that is a good word. The polling data is easily accessible. 
Gallup, Zogby, Pew have done, you know, massive polls around 
the Muslim world, and the numbers speak for themselves.
    You know, the caveat here, of course, is the Baader-Meinhof 
Group in Germany had zero public support in the 1970s in 
Germany, and a very small group of people continued to inflict 
a lot of damage on the German state.
    But, you know, I think that they, overall--the chairman 
mentioned no attacks in the United States. I think another 
point is, no successful attacks in the West since July 7th, 
2005, in London by Al Qaeda proper. You know, attempts in 
places like Ramstein Air Force Base in 2007; you know, we had 
the Mumbai-style--possibility of Mumbai-style attacks in Europe 
in the fall of last year, which produced a Europe-wide terror 
alert by the State Department. But they haven't got one 
through. They may eventually. By the law of averages, they 
will. But not only is their ideology in decline, they are 
operationally not very successful.
    And one final point, which I think, just to kind of 
underline about the Arab Spring, it is really striking to me 
that not a single picture of bin Laden has been waved by any of 
the protesters in Cairo, Benghazi, or anywhere else; not a 
single American flag burning; not a single Israeli flag 
burning. Al Qaeda's ideas, foot soldiers, and leaders are just 
simply not part of this conversation.
    Mr. Thornberry. Thank you. I want to come back to some of 
that, but let me yield to Mr. Johnson for some questions.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Bergen, what would happen if the U.S. allows the 
Taliban to take over Afghanistan?
    Mr. Bergen. We have already run a kind of controlled 
experiment on that question in Pakistan, and very recently. In 
2009, the Taliban took over Swat, which was a premier tourist 
destination in Pakistan in the north. They beheaded a 
policeman, they burned down the girls' schools, and they 
inflicted a reign of terror on the population. They did exactly 
the same thing in Waziristan in 2005 and 2006 in the tribal 
regions of Pakistan.
    So if the Taliban took over in Afghanistan, either 
partially or fully--they can't take over fully--but even 
partially, you know, they have had a long time to reject Al 
Qaeda and all its works, and they have never done that. And 
with the death of bin Laden--we are now 7 weeks after the death 
of bin Laden. This was a perfect opportunity for the Taliban to 
say, ``Hey, you know, our deal was with bin Laden, not Al 
Qaeda. We reject Al Qaeda.'' They haven't done it. In fact, 
quite the reverse; they have said they are going to take 
revenge for bin Laden's death.
    So I am quite skeptical of the notion that the Taliban is a 
bunch of Henry Kissingers in waiting who are just going to 
suddenly become rational actors and, you know--they have never 
said what kind of society they envisage for Afghanistan, their 
view on democracy, elections, or women working or girls in 
school. I think we know what their real views are, but they 
have been very silent on what they plan to do.
    And it is very striking to me, in this country, liberals, 
who were very much up in arms about the kind of behavior of the 
Taliban before 9/11, have been strikingly silent on the issue 
of what the Taliban coming back to power in some shape or form 
in Afghanistan would mean for the women of Afghanistan and the 
girls.
    Mr. Johnson. Is it likely that the Taliban would take over 
if the U.S. withdraws too quickly from Afghanistan?
    Mr. Bergen. I don't think they can take over, sir, but, 
certainly, if our withdrawal was too precipitous, they could 
take over large chunks of the south and the east, not because 
they are so strong, but because the Afghan Government and the 
Afghan National Army, which Mr. Jenkins referred to, are still 
relatively weak. And I----
    Mr. Johnson. Well, if they did take over those sections, 
would those sections become a safe haven or a place where 
jihadists and other terrorists could find sanctuary?
    Mr. Bergen. In my view, yes, because, again, we have run a 
controlled experiment on this question. When Al Qaeda and other 
groups allied to it were fleeing Afghanistan, you know, where 
did they end up? In Taliban-controlled Pakistan.
    Mr. Johnson. All right.
    Do either one of you gentlemen want to add anything to what 
Dr. Bergen has said?
    Mr. Jenkins. Let me just add that I do agree that a 
precipitous withdrawal or too rapid a withdrawal from 
Afghanistan could, in fact, lead not to a direct Taliban 
takeover, because they would still be vulnerable there, but it 
could give space to Al Qaeda, space to the jihadists.
    Moreover, it would be--that combined with the very 
turbulent situation we already see in the adjacent areas of 
Pakistan, that would become an area of a source of trouble 
again for the rest of the world.
    Dr. Gorka. If I may, on the point of the ideology behind Al 
Qaeda and whether or not bin Laden's death will effect the 
spread of it further, the fact is, what we see in the evolution 
of Al Qaeda is a paradoxical evolution. We really have made it 
impossible for it to execute large-scale, mass-casualty attacks 
on the soil of the United States. That is correct.
    But while we have been successful in shrinking its capacity 
operationally, its influence ideologically has increased. This 
is something that is recognized across the intelligence 
community and elsewhere. The fact is, whether bin Laden is dead 
or not, whether or not Ayman al-Zawahiri is a charismatic 
individual, the brand of Salafi jihadism that they represented 
or propagated is still very popular. There is no alternative 
that is taking on this ideology.
    Yes, the Arab Spring is to be welcomed, but we must 
remember one very, very daunting fact. Everybody that the Arab 
Spring targeted, whether it was Mubarak, whether it is Saleh, 
whether it is even the King of Jordan, who is being 
pressurized, all these individuals are inimical to Al Qaeda, 
are enemies to Salafi jihadists. So just because we have people 
who look to be interested in establishing democracies doesn't 
mean that the Salafi jihadists are actually very happy to see 
what they saw as secular dictators removed or puppets of the 
West removed.
    Mr. Johnson. Thank you.
    I yield back.
    Mr. Thornberry. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. You have a great 
panel. I am sorry I just missed it. We are all doing about 
double and triple duty here today.
    But I wanted to, I think, try and focus a little bit more 
on--we have this discussion, anti-insurgency, anti-terrorism--I 
don't think you addressed this already. In the light of 
terrorist threats, I mean, I have always thought that the two 
essentially worked hand-in-hand, you know, that it is difficult 
to separate them. Certainly, exactly, you can't separate them, 
but even as we talk about them and the need to get information 
and be able to do targeting.
    Could you address that and how it is perceived, do you 
think, by Al Qaeda and where these efforts fit in? Does a 
threat of more drone attacks, for example, does that do 
anything different than the fact that you are actually working 
in villages and using persuasion, and more grassroots, if you 
will, work is a greater threat? Where do you see this?
    Mr. Jenkins. I think we get wrapped around some of these 
doctrinal issues a bit too much and try to make these precise 
distinctions. I mean, if we were talking about, as Mr. Bergen 
mentioned, you know, the Red Army Faction in Germany, there, we 
are talking about a pure counterterrorist strategy, we are 
talking about law enforcement and things like that. If we were 
talking about, say, something in Central America or Latin 
America in the 1960s, we would be talking about a pure 
counterinsurgency strategy.
    In the situation we face today, they are obviously mixed 
together. And, therefore, the means that we employ in dealing 
with this worldwide have to be tailored to the specific 
situations. In Afghanistan, we are dealing with an insurgency 
situation, but we are also going after the terrorists directly 
with the drone strikes. In other parts of the world, we are 
relying on intelligence and law enforcement and diplomacy to 
arrest and bring to justice individual members. Now, that is 
not counterinsurgency; that would be more counterterrorist.
    So, depending on the situation and the terrain, we have 
mixtures of both, and we have to orchestrate all of those 
instruments--law enforcement, intelligence, diplomacy, 
counterinsurgency tactics, counterterrorist measures, military 
force, everything--as it is appropriate to the specific 
situation. And that is going to be different in Yemen from what 
it is in Somalia, from what it is in Algeria, from what it is 
in Afghanistan.
    Dr. Gorka. Mr. Jenkins is absolutely right; both of these 
can have applicability. Counterterrorism [CT] is primarily a 
tool that is used to attack a network or an organization. 
Counterinsurgency [COIN] is a far deeper tool which actually 
ultimately has to address the conditions and the environment in 
which an insurgency grows and challenges the state.
    The problem with today's approach is that both of these 
have applicability but neither of them answer the strategic 
question. These remain doctrinal tools. It is the hammer, it is 
the screwdriver, but it isn't the manual of repair that tells 
us why we have to use these. So the problem remains the 
strategic question.
    And the debate is a superficial one. The debate of CT, 
counterterrorism, versus COIN is I think in part a product of 
what we have seen in the last 10 years as classic mission 
creep. We went into Afghanistan to do what? To destroy the 
organization that had executed the attacks against citizens 
here in the United States. Well, yes, but 10 years later, what 
are we doing? Much more than attacking Al Qaeda, because Al 
Qaeda has left Afghanistan to a large extent. We are trying to 
make sure Afghan girls can go to school. So mission creep has 
created this largely artificial debate.
    Mrs. Davis. Thank you.
    Can I just follow up for a second with Mr. Bergen? Because 
I wanted to say I appreciate the fact that you raise that issue 
of the women and the extent to which we, I think, send some 
very strong messages about the fact that they should be 
essentially at the table, that they should have some meaningful 
participation as we work toward reintegration, and, I think, 
think about a time that they actually would be playing a role 
that is acknowledged in development of a civil society.
    Now, a lot of people have discounted that, obviously, 
because they think that, again, that is part of mission creep, 
if you will, it is part of a greater effort that is 
generational, it is too difficult, it is too hard.
    Could you comment, though, on whether or not you think that 
that is an important message and whether or not it--how do you 
think it should be articulated?
    Mr. Bergen. I would answer it this way, Representative 
Davis. Two things.
    First of all, if you look at guide books to Afghanistan in 
the late 1960s or the early 1970s, you see pictures of women 
unveiled working in offices. And, you know, the idea that the 
Taliban represents the Afghan view of how women should be 
treated is nonsensical. It is a very minority view. And the 
idea that--in fact, you know, whether it is mission creep or 
not we can sort of debate, but something that I think is not 
well-processed sometimes in this country is the huge strides 
that have been made for girls in the last 10 years in 
Afghanistan. When the Taliban were in power, there were a 
million kids in school. About, you know, 0.1 percent of them 
were girls. Now there are 8 million kids in school; 37 percent 
of them are girls.
    So, as we go forward with the Taliban and think about the 
kind of society they want, I think this has to be part of the 
discussion. Afghans want their kids to be educated, whether 
they are girls or boys. And the Taliban, who are going to be 
part of some discussion of the future of Afghanistan--I think 
that is a sort of nonnegotiable.
    One of our demands is they accept the Afghan Constitution. 
Well, the Afghan Constitution mandates, for instance, that 25 
percent of the people in the Afghan Parliament should be women, 
which I think is probably higher than it is in this body in 
this country.
    Mrs. Davis. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I am very conflicted about some of the statements that I 
have heard. And I am sorry I wasn't in here earlier. But, you 
know, you just mentioned that Afghan parents want their kids 
educated. Well, so do Americans. And one of the biggest 
problems we have is that money is being siphoned off halfway 
around the world for the wars that we are in.
    And it is very difficult because we have no measurement of 
how we are doing, and, meanwhile, our own economy is 
collapsing. People can't go--in California, for example, our 
university system, our Cal State system, our community college 
system is all completely impacted. So we, as policymakers and 
as people who are entrusted with the fiscal soundness of the 
United States, have a big problem with what is going on.
    You know, and I am worried about mission creep because I 
think we are in complete mission creep. I have been for getting 
out of Afghanistan for a while now. Nobody, not a general, even 
when they are before our committee, can tell me really why we 
are still in Afghanistan.
    And I just relate it back to the fact that we are still in 
Iraq. And I know, for example--I voted against Iraq. And I have 
sat on this committee for 15 years, on the military committee. 
So it is not like I am afraid of the military, I am afraid of 
the power we have. We have incredible power. But, you know, we 
have the best-equipped, best-trained, best-educated military 
that the world has ever seen, but it is still a limited 
resource.
    And, you know, with Iraq, first it was about WMD [weapons 
of mass destruction] and nuke terror. Then it was about the 
democratic transformation of the Middle East. Then it was about 
the freedom of the Iraqi people. Then it was about fighting Al 
Qaeda over there instead of over here. Then it was about 
preventing a regional war. Then it was about preventing a 
genocidal civil war. Then it was about the price of gas in the 
United States. It kept changing on us, and we are still there.
    So I am looking at Afghanistan and I am wondering, why are 
we still there? And for someone to say this is about fighting 
Al Qaeda there--and this gentleman just said, you know, 
couldn't possibly be, because there are so few there, and there 
are other ways to take care of those people, other than having 
a conventional-size Army sitting there.
    I still disagree, and I disagreed from the beginning, with 
our President about sending this surge over there, mostly 
because of the types of things I heard out of the 
parliamentarians and Karzai when I go and visit.
    So my question to you guys is, with respect to Al Qaeda, 
why are we still in Afghanistan, in your opinion?
    Dr. Gorka. I think exactly for the reasons you just 
mentioned. I think the fact is, if we wish to create a 
functioning federal country in Afghanistan, where everybody has 
civil rights comparable to a developed western nation and which 
has a market economy that functions well, we will not do it 
with 100,000 troops. NYPD [New York Police Department] has 
40,000 officers--NYPD. And we think we are going to turn 
Afghanistan into a close ally that functions as a federal state 
with human rights and civil rights for all?
    The problem is, we haven't asked the difficult question you 
just raised. Why are we there if Al Qaeda's center of gravity 
is elsewhere and if we don't have the financial wherewithal to 
turn Afghanistan into Switzerland?
    It will not happen. There probably will be a military 
presence there, but it will be of a very different tactical 
nature. And the bottom line is, the British and the Soviets 
failed. We will not be able to succeed where they failed 
because they used tactics that we are not allowed to use, and I 
am very glad we are not allowed to use them.
    Ms. Sanchez. Thank you.
    Mr. Bergen. I have been visiting Afghanistan since the 
civil war in the 1990s. I was there under the Taliban. But this 
is not really my opinion. Sixty-eight percent of Afghans have a 
favorable view of international forces. This is the BBC-ABC 
poll taken several months ago. That is an astonishing number. 
Can you think of a Muslim country that has a 68 percent 
favorable view of the U.S. military that is occupying their 
country over the past 10 years?
    Why is that? Well, because they know that their lives are 
getting better. Now, the question, are we spending too much 
money there, $118 billion? Sure. But going to Representative 
Davis' question, you can't do an effective counterterrorism 
campaign without an effective counterinsurgency presence.
    And the reason that we can say with some certainty what 
alternative scenarios look like is we have already tried them. 
In 1989, the United States closed its embassy to Afghanistan, 
and into the vacuum came the Taliban, then allied with Al 
Qaeda. In 2002, because of its ideological opposition to 
nation-building, the George W. Bush administration did an 
operation on the light in Afghanistan. We got what we paid for. 
The Taliban came back, again allied with Al Qaeda and with Al 
Qaeda-like ideas.
    In 2003, there were 6,000 American soldiers in Afghanistan. 
That is the size of the police department in Houston in a 
country the size of Texas with 10 times the population. And so 
I think the President has been making the right set of 
decisions about resourcing this properly.
    I completely understand what Representative Sanchez said 
about, you know, we have to make choices. But the fact is that 
we were attacked from Afghanistan on 9/11. We have a very 
strong interest in preventing it from being a safe haven, not 
only for Al Qaeda, but every jihadist terrorist and insurgent 
group in the world was headquartered or based in Afghanistan 
before 9/11. Groups that have attacked us, as well--Pakistan 
Taliban is now attacking us. The Islamic Jihad Union tried to 
attack us at Ramstein Air Force Base in 2007. So it is not just 
about Al Qaeda. It is about a lot of other jihadist groups 
which are now on the Pakistan side of the Afghan border.
    Ms. Sanchez. Well, I would just say to that, there are a 
lot of other places that they can go and train, and there are a 
lot of ways to eliminate them from training that doesn't 
require us to have 140,000 people on the ground.
    I don't know if the other gentleman had a comment to that 
question. And I am sorry, Mr. Chairman, if I am taking a little 
bit too long, but I think it is an important question to ask.
    Mr. Jenkins. First, I tend to be ferociously focused on Al 
Qaeda and, therefore, will not argue against the fact that the 
invasion of Iraq and the subsequent insurgency there was a 
costly distraction and certainly won't defend that.
    But the fact is, we went into Afghanistan for a purpose, we 
are there for a continued purpose: to prevent the return of Al 
Qaeda to that area, which I believe they would benefit from.
    However, having said that, I don't think it is a matter of 
needing 140,000 troops. If we choose to do it that way, yes, we 
need 140,000 troops. I do think we have to lower our 
expectations of what we can achieve. We do want to keep a 
presence in the area. I think we can do more with local forces 
and Special Forces, which could significantly reduce the 
footprint of the Americans and the cost.
    I hesitate--I mean, I am a veteran of Vietnam, and one is 
always hesitant about bringing up an historical example from 
Vietnam as anything positive. But in Vietnam, with 2,000 
Special Forces, we fielded an army, not the South Vietnamese 
Army but something called the Civilian Irregular Defense Group, 
of 50,000 tribesmen--2,000 soldiers. Those tribesmen were 
extremely effective because they were local soldiers and knew 
the territory.
    I think we have to move in the direction of greater 
reliance on local forces, tribal forces, Special Forces, and 
Special Operations, which will reduce the need for the presence 
of 100,000 American soldiers.
    We are also going to have to lower our expectations 
somewhat. We are not going to win a war or, as Dr. Gorka says, 
turn Afghanistan into Switzerland. What we are talking about is 
managing a very turbulent situation to ensure it does not 
permit an Al Qaeda comeback. That doesn't take 100,000 American 
troops. That is doing something different.
    So we shouldn't get wrapped around the number. We should 
think about how we configure our forces to achieve our long-
term goals, doing something that is sustainable. What we have 
now is not sustainable.
    Ms. Sanchez. Thank you, Mr. Jenkins.
    And thank you for the indulgence, Mr. Chairman.
    Mr. Thornberry. I appreciate the gentlelady's questions.
    Let me turn back to a couple of issues that have come up 
that I want to ask you all a little more about.
    One is the Arab Spring. You have all spoken favorably of 
it. Other people write that--building on the idea that it has 
displaced people who were helping us fight Al Qaeda, and also, 
though, expressing the concern that it has built up 
expectations among the populations which cannot be achieved, 
and so, in that discontent, there will be an even bigger 
breeding ground for Al Qaeda and that sort of ideology. I think 
one of you said a while ago, you know, this sort of ideology 
becomes kind of like flypaper on whatever people's 
disappointments may be stuck on.
    So my question is, is the Arab Spring and the changes that 
are going on there a uniformly good thing, or does it really 
present some downsides when looking at it from a fight-against-
terrorism perspective?
    Mr. Jenkins. There are both upsides and downsides.
    On the one hand, this is a positive development, certainly 
with regard to--I think all of us agree--with regard to the 
relevancy of Al Qaeda. Al Qaeda, as I mentioned before, can 
benefit from the short-term turmoil.
    In the longer term, there are a number of things that can 
happen that are going to be potentially negative. One is that 
the expectations of the people are not going to be fulfilled. 
It is going to lead to frustration. And that could provide some 
opportunities for Al Qaeda.
    It is also likely that, whatever new governments emerge in 
these countries, counterterrorism is not going to be at the top 
of their agenda. And, therefore, it can't be the single 
currency with which we interact. So our diplomacy in these 
places is going to have to be very adept at addressing the 
needs of these new governments--and, hopefully, more democratic 
governments, less autocratic than they have been--and, at the 
same time, not simply gauging them solely on their performance 
of where they put counterterrorism on their agenda. They are 
going to have other political and economic issues to address, 
and we ought to be able to help them address those.
    Mr. Bergen. You know, Czar Nicholas II in Russia in 1916, 
you know, certainly didn't know that, in 2 years, not only he 
would be dead but Lenin would be ruling in his place. So, I 
mean, revolutions--the whole point about revolutions is they 
are not predictable. So we don't know what is going to happen.
    That said, going to the chairman's direct question, Al 
Qaeda was really incubated by these authoritarian regimes. I 
mean, it is not an accident that so many of them are Saudis, 
Yemenis, and Egyptians. It was these particular circumstances 
of authoritarian regimes in these countries that produced this 
ideology. Sayyid Qutb, their Lenin, came out of the Egyptian 
prison system. Ayman al-Zawahiri himself, bin Laden himself 
came out of Saudi Arabia. And so, the fact that there is a real 
ideological counternarrative to the authoritarian regimes in 
which Al Qaeda isn't playing a role is not to be discounted. No 
one is calling for a Taliban-style theocracy in any of these 
countries, which is what Al Qaeda really wants.
    That said, there are opportunities. The most obvious one is 
in southern Yemen, which, if you were to think about a country 
which looks most like pre-9/11 Afghanistan, southern Yemen 
would be that place. And already Al Qaeda has taken control of 
a town. So they will obviously try to take control of places 
they can. But in the long term, this is very, very poor, bad 
for them.
    And one final point on this. It was only posthumously that 
bin Laden ever commented on the Arab Spring, in a tape that we 
have now recovered. He commented on the most minor news 
developments in the Muslim world. We have, like, 35 statements 
from him since 9/11. And he didn't comment because it was very 
hard for him to know what to say about this thing which was 
happening without him, his foot soldiers, or his ideas as being 
part of the whole kind of event.
    Dr. Gorka. Mr. Bergen is absolutely correct that 
revolutions can go either way. We can have the revolution in 
1917 create the greatest threat to Western civilization for the 
next 70 years, or we can have the revolution of 1776 create the 
greatest tribute to liberty and democracy that there ever has 
been. So the evidence is out right now.
    But the question is, what does the direction of a 
revolution depend upon? Two things. It depends upon the 
conditions and the building blocks in the country where the 
revolution occurs and, secondly, the ideology of that elite, 
which drives events after the violence has occurred.
    Now, in the countries of North Africa and the Middle East, 
what we have is we have conditions which are not favorable to 
the establishment of well-functioning democracies because we 
don't have civil society there. It has to be built. I spent 15 
years of my life in a post-dictatorial country, and I have seen 
that, no matter how nice the constitution, how many political 
parties there are, how many private media franchises exist, if 
the political culture of democracy isn't there, these are all 
window-dressing.
    Secondly is the question of ideology. The problem with the 
events of the Arab Spring is that there may be a temporary, 
vast swell of rejection of dictatorial regimes or quasi-
authoritarian regimes. But what is the alternative? Democracy 
is not a shake-and-bake effort. And, unfortunately, in 
countries such as Egypt, there is only one organized 
alternative to the dictatorship, and that is an organization 
that, since 1928, has a game plan, that has a playbook, and 
that is the Muslim Brotherhood.
    And the Muslim Brotherhood has a very famous saying, ``One 
man, one vote, once.'' If that is the only tangible, well-
thought-out ideology in this country, then we may have problems 
in the future.
    Mr. Thornberry. Thank you all.
    I would yield to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel for being here today and 
apologize that I wasn't here at the beginning of the hearing. I 
was with Director Panetta at his farewell meeting before the 
Intelligence Committee. So I appreciate your being here today, 
and if some of my questions have already been asked, again, I 
apologize in advance.
    But if we could, just turning to the wave of revolution 
that is sweeping across the Middle East, considering the 
current and future transnational terrorist threats, is there a 
particular region that is more problematic than others? 
Indonesia, South America, the Middle East, Africa? What, 
basically, also, the effect of the Arab Spring had in our 
counterterrorism efforts?
    Those two areas, those two questions.
    Mr. Jenkins. If I understand the question correctly, Mr. 
Langevin, the areas that are of greatest concern, most 
problematic, is the focus.
    Mr. Langevin. Right. And then what effect has the Arab 
Spring had on our counterterrorism efforts, would be the----
    Mr. Jenkins. I mean, clearly, I think there would be 
consensus that Yemen is the most chaotic situation and it is 
also the country where Al Qaeda is very well-situated. It is 
absolutely unclear how things will unfold in that particular 
country. That certainly could be a center of future Al Qaeda 
activity. And we have already seen that Al Qaeda in the Arabian 
Peninsula has been very effective in its communications and its 
determination to attack U.S. targets. So, outside of 
Afghanistan/Pakistan area, which we already have addressed, I 
would put Yemen very high on the list.
    I don't want to ignore Afghanistan or Pakistan. Pakistan--
put aside Afghanistan for a moment--Pakistan is undergoing a 
slow radicalization process. Aside from the insurgent threat, 
aside from the terrorist threat, within Pakistan society, 
within the Pakistan military, there is evidence of growing 
radicalization. So that would be high on the list.
    Among the countries of North Africa and the Middle East, 
Libya, again, chaotic situation there; hard to see what the 
outcome would be. The fighting there could persist for a long 
period of time. And it is not clear, in that case, whether or 
not Al Qaeda could find some type of foothold there.
    The final one I would probably add to the mix would be 
Syria, where the government has thus far resorted to brutal 
repression. But there is a society where, if we again saw it 
descend into a civil war situation or sectarian conflict, where 
Al Qaeda could find, again, some ability to purchase space at 
the edge of that situation.
    So there are a number of spots that relate to that which I 
think are very problematic.
    Mr. Langevin. Let me go back to Pakistan for a second and 
talk about the radicalization that you have seen there.
    Some would suggest, obviously, that, initially, Al Qaeda 
enjoyed a great deal of support in Pakistan. And, over the 
years, for a variety of reasons, including the trouble that Al 
Qaeda, in a sense, has brought to Pakistan, that that support 
had dwindled. And now you seem to be saying that maybe 
radicalization, maybe support for Al Qaeda is increasing? Is 
that the case? And does that threaten the current--to what 
degree does it threaten the current government in Pakistan?
    Mr. Jenkins. The radicalization is not specifically--it is 
more complex than Al Qaeda. So it is not that the population is 
moving toward a pro-Al Qaeda position, but simply that the 
society itself is becoming, or at least portions of it, are 
becoming more radical in their views, more hostile toward the 
United States, facing some very, very serious problems in terms 
of economic problems, demographic problems.
    And what we have seen which I think is a cause for concern 
is, in some of these recent attacks that have occurred--for 
example, the most recent major attack at the Pakistan major 
naval base--and some of these others, is that it appears that 
there was some degree of inside assistance to those attacks.
    And so it is not simply, where is Pakistan on the scale of 
pro- or anti-Al Qaeda, but, rather, for other more complex 
reasons, a radicalization that is taking place that could lead 
to some very serious problems in the country. So, even taking 
Al Qaeda out of the equation, Pakistan is problematic.
    Mr. Bergen. I just wanted to inject some good news into all 
this. I mean, the most populous Muslim country, of course, is 
Indonesia. And amongst a lot of bad news that we have heard, 
you know, the Al Qaeda affiliate there is basically on life 
support. Because it has killed a lot of Indonesian civilians, 
the Indonesian Government has taken a very aggressive stance 
against it.
    And just to pick up on the Pakistan issue, you know, the 
recent Pew poll shows the United States is at 12 percent 
favorable. Usually, we get about 15, 20 percent. Anti-
Americanism in Pakistan, which I think is part of this 
radicalization picture--not just about Al Qaeda, I agree with 
Mr. Jenkins--is really a problem that we need to kind of 
confront and think about very seriously.
    Obviously, there is no appetite in Congress for additional 
aid to Pakistan, and, in fact, there is no appetite in Pakistan 
for aid from the United States. Very little of it actually gets 
disbursed because of all the caveats and reporting 
requirements.
    But I think a discussion in Congress about some kind of 
greater trade agreement with Pakistan--they really want access 
to our markets, not handouts. Sixty percent of Pakistani 
manufacturing is textiles. We have quite punitive tariffs on 
Pakistani textiles compared to other countries like France. And 
this is, of course, something that has been long discussed.
    But if we are thinking about trying to have more of a 
strategic, real partnership with Pakistan, with Pakistan's 
people, not with its government or military, a more trade-based 
arrangement is the way to go, similar to things that we have 
discussed about Colombia, that we might have in place for Egypt 
in the future, and other countries.
    Dr. Gorka. I would agree with Mr. Jenkins, that, despite 
whatever is happening in the Arab Spring events, that Pakistan 
remains of primary concern, for the reasons he noted.
    But if we looked solely to the Middle East, then it is 
Egypt, I think, that perhaps is the most potentially 
deleterious to U.S. national interests. If the actions of the 
military council could still make moves for the Muslim 
Brotherhood easier, such an early election, such as amendments 
to the constitution, with the history that Egypt has for being, 
as Mr. Berger mentioned, the hotbed of Al Qaeda ideology in 
recent years, then that would be the country I would look at 
the most closely.
    On a technical issue, when it comes to polling data, one 
has to be incredibly cautious with any polling data executed in 
Muslim or Arab nations. These are not as reliable as polling 
data in other countries. A lot depends upon who is asking the 
question, what nationality they are, what language they speak. 
So even Pew polls can be potentially misleading with regards to 
attitudes to America or the West.
    Mr. Langevin. Thank you.
    My time has expired. But if you could get back to us for 
the record on the second half of my question, what effect has 
the Arab Spring had on our counterterrorism efforts, I would 
appreciate that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Thornberry. And we had some other discussion on that, 
too, so I appreciate--altogether, I think it is an important 
question.
    Mr. Johnson, do you have other questions?
    Mr. Johnson. Yes, I would.
    Quickly, if I could get into this issue of Pakistan. How 
important is Pakistan to our decision-making when it comes to 
withdrawal from Afghanistan, and why?
    Mr. Bergen. Do the thought experiment where Iranian nuclear 
scientists have met with bin Laden to discuss nuclear weapons 
and Al Qaeda was headquartered in Iran and the Taliban was 
headquartered in Iran, we would have gone to war with Iran 
after 9/11. Of course, it was Pakistan where his nuclear 
scientists were meeting with bin Laden, Pakistan where Al Qaeda 
and the Taliban are headquartered.
    So Pakistan is just absolutely essential to this whole 
discussion. We can't invade Pakistan. They have nuclear weapons 
and 500,000 soldiers. But what they decide in their strategic 
calculus is key to our national security.
    And I think it is important to just put yourselves in their 
shoes for a minute. They have lost 3,000 soldiers in the fight 
against the Taliban, which is more than the United States and 
NATO [North Atlantic Treaty Organization] combined have done in 
Afghanistan. And so they feel that they have done quite a lot. 
And, certainly, they have done serious military operations in 
southern Waziristan and Swat. The question is, you know, what 
more are they going to do? They are quite tired of being told 
by us, ``You need to do more.''
    And that is why I think, you know, this issue of anti-
Americanism and strategic partnership with them, a real 
strategic partnership is important, because, you know, whether 
accepting Dr. Gorka's caveat about polling, the fact is that 
Pakistan is probably one of the most anti-American countries in 
the world. And that does not help us.
    And if we can get Pakistan to be part of the post-2014 
Afghanistan settlement in a way that acknowledges that they 
have real concerns about what the post-2014 settlement looks 
like and their role in it, and if we can make them more of a 
strategic partner through trade with us, I think that that will 
go a long way to kind of getting rid of some of the underlying 
issues that create the problems that we are trying to discuss 
today.
    Dr. Gorka. Pakistan remains absolutely central to this, for 
all the reasons that have already been noted. But I think the 
most important one is that, at the moment, it is a country that 
simply has one functioning government element, and that is the 
military--a military which now is either seen to be incompetent 
or complicit with Al Qaeda. So the fact that Al Qaeda's center 
of gravity has shifted there also makes it a vital theater of 
operations.
    But one thing we have to remember is--and this came out in 
an inference in an earlier discussion--it is not just Al Qaeda. 
Pakistan is now the breeding ground for general Salafi jihadist 
movements, be they ones connected to the government, such as 
Lashkar-e-Taiba, or other organizations. So, as we look at 
ahead, Pakistan may indeed be much more important than 
Afghanistan in the fight against religiously fueled Islamic 
extremism.
    Mr. Jenkins. If I can just add a note by way of a paradox 
here. While Pakistanis may be increasingly anti-American and 
while, certainly, the Pakistani Government is increasingly 
opposed to U.S. counterterrorist activity in Pakistan, at the 
same time the Pakistani leadership is concerned that we will 
walk away from Afghanistan, as we did before, leaving them with 
a huge mess on their frontier. And they are hedging their bets.
    So, on the one hand, while they dislike our activities, on 
the other hand they worry about what will happen if we 
precipitously depart and leave them to deal with a chaotic 
situation in Afghanistan which certainly has already spilled 
over onto their borders.
    And that is the problem we have with Pakistan, that we have 
a country that is driven by a number of existential fears. I 
mean, they fear the Indians. They fear our friendship with 
India. They worry that the United States is a threat to their 
national security. They worry that there will be a chaos in 
Afghanistan which will affect them. They worry about the 
internal dynamics that we have been discussing. They worry 
about insurgencies in Baluchistan.
    This is a country that has been driven since its creation 
and increasingly in the last decade by overwhelming existential 
fears about their survival as a nation. And that makes them 
extremely difficult to deal with.
    Mr. Thornberry. Thank you.
    I think we are down to a minute or two on the clock on the 
floor. But, Ms. Davis, if you would like to ask other 
questions? I may hang for a little longer, but I wanted to 
alert you on what the situation is.
    Mrs. Davis. Maybe I will just make this easy.
    Is there one lesson that you see that we have had great 
difficulty learning from these conflicts?
    Mr. Jenkins. I will be very brief.
    Americans typically undertake very ambitious efforts. And 
even efforts that we start out sometimes as being very 
precisely targeted have a way of becoming ambitious efforts. We 
believe that if we pour resources into a problem, we can get it 
done with, breathe a sigh of relief, go back to status quo 
antebellum.
    We don't get that here. And, therefore, coming back to 
probably the essential point I would make is, what Americans 
have to learn how to do is to really learn how to last for the 
long haul. Because the long haul, in this particular situation, 
is a given. And we are going to have to adjust our resources 
and our objectives to something that we can sustain.
    Mr. Bergen. You know, I think there is a lot of good news 
in the last 10 years. The United States is a learning 
organization, sort of country. And the people in it, they learn 
from their mistakes. So we kind of made a set of mistakes in 
Iraq, which we then kind of--you know, a lot of good decisions 
were then made. Similarly in Afghanistan, we are kind of making 
the right set of decisions. You know, Winston Churchill's 
famous line, ``The Americans will always do the right thing 
after they have exhausted every other possibility.'' And I 
think that is the case.
    And the point is, the enemy is actually not like that, so 
Al Qaeda doesn't learn from its mistakes. You know, it made a 
huge strategic error of attacking us on 9/11, which didn't get 
its strategic aim of regime change in the Middle East to 
Taliban-style theocracies. It also destroyed Al Qaeda, the 
organization, more or less. ``The Base,'' in Arabic, lost its 
base in Afghanistan. And they continue to regard us as the main 
enemy. And a rational actor would say, ``Hey, attacking the 
United States is really, actually, a very bad idea. Let's just 
go back to do things more doable,'' sort of trying to create a 
Taliban-style theocracy in Egypt or something like that. But 
they are not going to do that.
    So the good news is that we have learned from our mistakes 
over time and the Al Qaeda hasn't. And that means that, 
inevitably, they are going to, you know, just--they are small 
men on the wrong side of history, as President Obama referred 
to them. And history has just really sped up for them, with the 
death of bin Laden and the Arab Spring.
    Dr. Gorka. Thank you for your very pointed question.
    As a foreigner working for the U.S. Government, I realized 
something very quickly as a problem in the last 10 years, and 
that is the focus on the kinetic. The United States national 
security establishment, for obvious reasons, focuses on the 
violent aspects of this war. Whether it is two towers of flame 
crashing to the ground, whether it is IEDs [improvised 
explosive devices] or snipers, it focuses on the obvious.
    We need to understand the nonkinetic aspects of this war. 
We need to understand how a serving major in the United States 
Army can decide that his loyalty is with jihadi ideology and 
killing his fellow servicemen and their families as opposed to 
the constitution he swore to uphold. That is what I mean by the 
ideological, nonkinetic part of this war. And we are just 
beginning, after a decade, to understand or begin to address 
this question. So I think it is the focus on the kinetic we 
need to move away from.
    But thank you for the question.
    Mr. Thornberry. I thank the gentlelady.
    And, again, time has expired, but I want to miss a vote, if 
necessary, because I want to follow up on actually that point.
    I have been in several meetings the past couple weeks with 
Members where this idea of the ideological war, the extent to 
which what we call, some call, ``strategic communications'' 
makes a difference. And so I would like to get from each of you 
your thoughts on that aspect of this struggle against 
terrorism.
    And not to go through it, but some people argue this has to 
be fought out within the Islamic faith, that we have no role in 
it. Other people say that, you know, we have a much greater 
role and we have diffuse messages coming out and nobody knows 
really--you know, so we are not doing anything very well.
    But not just doing talking about broadcasts, the 
ideological part of this struggle I would appreciate your 
comments on.
    Mr. Bergen. Go ahead.
    Mr. Jenkins. There are going to be two views on this. And 
this is really a bit of a difference of views on this.
    One is the view that, look, terrorists themselves do have 
tactical successes. 9/11 was a tactical success. These other 
terrorists attacks were tactical successes, operational 
successes. But, as I think we all agree, that the attack of 9/
11 backfired for Al Qaeda and created consequences that it 
didn't expect, and that Al Qaeda's wanton slaughter of fellow 
Muslims has backfired on it, and that, therefore, what 
terrorists cannot do is translate their tactical successes into 
strategic successes. And this is the inherent limitations of 
terrorism as a strategy.
    And, therefore, the consequence for us is that, if we 
maintain our capability to blunt them operationally and, in the 
process, hold on to our values, that, ultimately, our 
institutions and our values will triumph over this. So it is 
not that we have to intervene directly to counter their 
message. Now, that doesn't negate tactical psychological 
operations and doing other things to create difficulties.
    What it does require, however, is a continued adherence to 
and projection of American values. Now, we did this during the 
cold war, and we devoted a lot more resources to it than we do 
today. The issue there was--I mean, we had libraries where 
people could in quiet read about Thomas Jefferson and things of 
this sort, and it had a great impact. It was useful stuff.
    The other view is that we have to intervene more actively 
to directly take on the jihadist ideology. I am not so certain 
about that.
    First of all, the problem we have is that, with the massive 
amount of communications going on in the world and the United 
States being a media-drenched society and, indeed, a source of 
a huge export of various things in communications, good and 
bad, that to try to craft a specific counter-jihadist message 
in this is, first of all, going to be lost in the noise and, 
second of all, is intervening in an area where we don't really 
have the credentials to do so. And, therefore, we might instead 
take a very cautious approach and say, we are Americans, this 
is what we believe, we will stop terrorist attacks, and within 
the Muslim community they have to deal with Al Qaeda 
themselves.
    Now, I realize limitations of polling, but I think Peter 
Bergen's polls will also show that, within the Muslim community 
worldwide and in the United States, even those who may be 
deeply resentful of certain aspects of U.S. foreign policy at 
the same time think Al Qaeda and its leaders are a bunch of 
crackpots.
    So there isn't that kind of widespread support. They are 
not getting traction. And they place a great deal of emphasis 
on this Internet campaign to recruit a lot more retail outlets 
in the form of Web sites, American-born salesmen like Gadahn 
and Awlaki and Hammami, but they are not selling a lot of cars. 
And that is important.
    Mr. Bergen. And following up on what Mr. Jenkins said, 
yeah, the ideology is sort of imploding around the Muslim 
world. And for the United States to engage in the debate, there 
are two problems, really. One is the lack-of-knowledge problem. 
We are not Islamic scholars. Two, the kiss-of-death problem, 
which is, anything associated particularly with the United 
States Government is problematic.
    Which is not to say that you can't say certain things. And 
I think there is one area where we can just hammer away in the 
kind of ideological struggle, which is on the issue of killing 
Muslim civilians. It is a tough one sometimes, because we are 
killing Muslim civilians in Afghanistan, although that number 
is going down pretty substantially. But this is really their 
Achilles' heel.
    And I remember the first time the U.S. Government, as one, 
really reacted. It was during the Bush administration where, 
you may recall, two women, one with mental problems, went into 
the central market in Baghdad, killed a hundred people in a 
suicide attack. Everybody in the U.S. Government, from 
Condoleezza Rice down, immediately said, you know, this is 
against Islam, a bad thing.
    And so, if you can kind of hammer away on this issue of 
them killing a lot of Muslim civilians, that is pretty 
effective. To get into an arcane debate about Islamic theology 
won't work.
    Dr. Gorka. The attacks of September 11th may have backfired 
for Al Qaeda but not for Al Qaeda's ideology. On the contrary, 
the events of September the 11th branded this ideology as 
something powerful because it could take violence to the heart 
of the United States.
    With regard to the question of, are we allowed to be part 
of this discourse inside Islam, after September the 11th of 
course we do. We have a dog in this fight, and we have every 
right to be part of that discourse.
    I think we have to remember that the cold war, for all its 
thousands of nuclear warheads and aircraft carriers and battle 
tanks across the German plain, was won in the ideational plane. 
It was won primarily on the grounds of ideology. And we need to 
do the same kinds of things we did then today.
    I agree that we have to start with who we are, as Mr. 
Jenkins said. We have to be clear about what it is that these 
individuals threaten in this Nation, why it is constitutional 
values that are undermined by anybody who believes in this 
ideology. And that Congress also has some work to do on this, 
because not only do we have confusion in the executive, but we 
have very out-of-date acts, such as the Smith-Mundt Act, which 
makes informational campaigns in this Internet age almost 
impossible for members of the national security domain.
    Lastly, on the issue of our current label for this part of 
the war, which is countering violent extremism, this is 
deleterious to the national security of the United States. We 
did not say when we were fighting the Ku Klux Klan that we are 
fighting violent extremism. We said that these were white 
supremacists and racists. You have to be clear about the 
ideology and what they say about themselves. This is an 
ideology of global jihad, not a grab bag of violent extremism.
    So let's begin to be specific, and let's start to take the 
fight to the enemy on the ideological plane as well as the 
kinetic.
    Mr. Thornberry. Well, thank you all. I think this is a good 
start for our inquiry as to 10 years after 9/11. I appreciate 
all your insights and your, again, flexibility on timing.
    And we will have future hearings to explore these ideas 
further, but, again, thank you all.
    With that, the hearing stands adjourned.
    [Whereupon, at 2:27 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 22, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 22, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7395.001
    
    [GRAPHIC] [TIFF OMITTED] T7395.002
    
    [GRAPHIC] [TIFF OMITTED] T7395.003
    
    [GRAPHIC] [TIFF OMITTED] T7395.004
    
    [GRAPHIC] [TIFF OMITTED] T7395.005
    
    [GRAPHIC] [TIFF OMITTED] T7395.006
    
    [GRAPHIC] [TIFF OMITTED] T7395.007
    
    [GRAPHIC] [TIFF OMITTED] T7395.008
    
    [GRAPHIC] [TIFF OMITTED] T7395.009
    
    [GRAPHIC] [TIFF OMITTED] T7395.010
    
    [GRAPHIC] [TIFF OMITTED] T7395.011
    
    [GRAPHIC] [TIFF OMITTED] T7395.012
    
    [GRAPHIC] [TIFF OMITTED] T7395.013
    
    [GRAPHIC] [TIFF OMITTED] T7395.014
    
    [GRAPHIC] [TIFF OMITTED] T7395.015
    
    [GRAPHIC] [TIFF OMITTED] T7395.016
    
    [GRAPHIC] [TIFF OMITTED] T7395.017
    
    [GRAPHIC] [TIFF OMITTED] T7395.018
    
    [GRAPHIC] [TIFF OMITTED] T7395.019
    
    [GRAPHIC] [TIFF OMITTED] T7395.020
    
    [GRAPHIC] [TIFF OMITTED] T7395.021
    
    [GRAPHIC] [TIFF OMITTED] T7395.022
    
    [GRAPHIC] [TIFF OMITTED] T7395.023
    
    [GRAPHIC] [TIFF OMITTED] T7395.024
    
    [GRAPHIC] [TIFF OMITTED] T7395.025
    
    [GRAPHIC] [TIFF OMITTED] T7395.026
    
    [GRAPHIC] [TIFF OMITTED] T7395.027
    
    [GRAPHIC] [TIFF OMITTED] T7395.028
    
    [GRAPHIC] [TIFF OMITTED] T7395.029
    
    [GRAPHIC] [TIFF OMITTED] T7395.030
    
    [GRAPHIC] [TIFF OMITTED] T7395.031
    
    [GRAPHIC] [TIFF OMITTED] T7395.032
    
    [GRAPHIC] [TIFF OMITTED] T7395.033
    
    [GRAPHIC] [TIFF OMITTED] T7395.034
    
    [GRAPHIC] [TIFF OMITTED] T7395.035
    
    [GRAPHIC] [TIFF OMITTED] T7395.036
    
    [GRAPHIC] [TIFF OMITTED] T7395.037
    
    [GRAPHIC] [TIFF OMITTED] T7395.038
    
    [GRAPHIC] [TIFF OMITTED] T7395.039
    
    [GRAPHIC] [TIFF OMITTED] T7395.040
    
    [GRAPHIC] [TIFF OMITTED] T7395.041
    
    [GRAPHIC] [TIFF OMITTED] T7395.042
    
    [GRAPHIC] [TIFF OMITTED] T7395.043
    
    [GRAPHIC] [TIFF OMITTED] T7395.044
    
    [GRAPHIC] [TIFF OMITTED] T7395.045
    
    [GRAPHIC] [TIFF OMITTED] T7395.046
    
    [GRAPHIC] [TIFF OMITTED] T7395.047
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 22, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7395.048
    
    [GRAPHIC] [TIFF OMITTED] T7395.049
    
    [GRAPHIC] [TIFF OMITTED] T7395.050
    
    [GRAPHIC] [TIFF OMITTED] T7395.051
    
    [GRAPHIC] [TIFF OMITTED] T7395.052
    
    [GRAPHIC] [TIFF OMITTED] T7395.053
    
    [GRAPHIC] [TIFF OMITTED] T7395.054
    
    [GRAPHIC] [TIFF OMITTED] T7395.055
    
    [GRAPHIC] [TIFF OMITTED] T7395.056
    
    [GRAPHIC] [TIFF OMITTED] T7395.057
    
    [GRAPHIC] [TIFF OMITTED] T7395.058
    
    [GRAPHIC] [TIFF OMITTED] T7395.059
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 22, 2011

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. To mitigate the threat we are facing--what would an 
effective U.S. information operations and strategic communication 
strategy look like?
    Dr. Gorka. In the war of ideas we need to fundamentally readjust 
our priorities. Our focus should be on making the enemy ``look bad'' as 
opposed to making the world ``love America.''
    Those that hate America and wish to hurt us will not be affected by 
any information or communications campaign aimed directly at them. 
Likewise, those that already have an affinity for `things American,' be 
it our music or durable goods, need not be targeted by USG information 
efforts. Instead, as is always the case, we must concentrate on the 
middle ground, those who do not lean decisively either way but who 
could provide a passive yet permissive environment for AQAM to operate 
within.
    As a result our strategic communications and information operations 
should target the putative authenticity and credibility of AQAM and its 
leaders, such as Zawahiri and Awlaki.
    We must not shy away from the religious nature of their ideology. 
We must take active measures to question:

    <bullet>  Their authority to represent Muslims
    <bullet>  Their credentials to speak on theological and religious 
matters
    <bullet>  Why the majority of all AQAM's victims are in fact 
Muslims.

    For example, we should sponsor billboards across AFG and IRQ, (but 
also in the US) that simply portray the headshots of Muslim victims of 
al Qaeda with the name and date of death under each face.
    To be even more effective, we should rediscover and deploy those 
information operations techniques that were so well utilized by the US 
during the Cold War. We should discretely invest in scholars, activists 
and organizations within the Muslim and Arab world that are already 
fighting the war of ideas against the Global Jihadists but whom we have 
not embraced due to our reluctance to engage in the religious debate. 
This reluctance is thanks to a political correctness that denies our 
right to engage in the religious debate despite that fact that those 
that murdered thousands of Americans on September 11th 2001 (and at 
Fort Hood) said they did so in the name of Allah.
    One of the first such groups we should support are the Khoranists, 
such as Ibn Warraq and Christopher Luxembourg, who are risking their 
lives by working to spread the message that the violent sections of the 
Khoran, so powerfully used by the Global Jihadists, must be 
reinterpreted and understood as inadmissible in a modern world that 
respects human rights and freedom of conscience.
    Mr. Thornberry. In your written testimony, you say that we have 
forgotten certain ``cardinal rules of effective information and 
psychological operations.'' Please expand. How do we improve upon our 
ability to win the ``battle of the narrative'' and limit our enemies' 
ability to recruit?
    Dr. Gorka. One cannot communicate strategically unless one has a 
strategy to communicate. This sounds obvious, but one of the reasons 
AQAM still dominates the information agenda is that they have a clear 
strategy: the establishment of a Global Caliphate under Sharia law, 
whilst we do not.
    Take for example our actions in Central Asia and the Middle East in 
the last ten years. We first deployed to destroy al Qaeda. Then we 
stated that Afghanistan must be a democracy. Then we said Iraq has 
Weapons of Mass Destruction and Saddam Hussein must be deposed and Iraq 
made a democracy. Now we say that we must leave despite neither of 
those nations being stable democracies (and Afghanistan unlikely to 
ever be one).
    Then in response to the Arab Spring we demonstrated greater 
confusion. First the administration was conspicuous by its absence, 
despite being nominally committed to democracy's spread in the region. 
Then we finally insist that Mubarak must step down despite America 
being his staunch ally for three decades. After he does so, the 
administration incredibly decides to open talks with the Muslim 
Brotherhood and thus formally recognize an organization that in its 
official charter is committed to the spread of Sharia law and the use 
of jihad. At the same time nothing is being done to stop the massacre 
of Syrians by their own president. This confusion speaks to strategic 
confusion. When an administration, Republican or Democrat, is confused 
about what its strategic goals are, effective strategic communications 
and information operations will be impossible.
    Therefore America must decide:

    <bullet>  Why do we care about the Middle East?
    <bullet>  Is democracy important to the region?
    <bullet>  If so, what are we prepared to do about organizations--
and governments--committed to the establishment of repressive religious 
regimes?

    These questions however cannot be answered if we do not first 
obtain clarity on the following questions:

     I.  Who exactly is the current enemy?
        What are it characteristics?
        What is its strategy?
     II.  What do we as a nation represent, what are our core values?
         Which are the norms we deem universal and non-negotiable and 
that we demand our allies adhere to?
    III.  What is our strategy to defeat the enemy?
        What is our definition of victory?

    In the tenth year of the war on terror these questions should be--
must be--answerable.
    If these strategic level questions are answered and US policy is 
consistent with the answers so given, our information campaigns and 
psychological operations will have a solid foundation which will guide 
our specific actions. Additionally we must identify the particular 
weaknesses of the Global Jihadist movement and exploit them, just as we 
identified the weaknesses of the international Communist movement and 
exploited them to win the last ideological war, the Cold War.
    (However, much of this is a moot point if Congress does not repeal 
or amend the Smith Mundt Act of 1948, specifically its prohibition on 
information designed for foreign audiences reaching US audiences, a 
restriction that in the age of the internet is completely unrealistic.)
    For further details on how to proceed, please refer to the chapter 
I co-authored with David Kilcullen, entitled ``Who's Winning the Battle 
for Narrative? Al Qaida versus the United States and its Allies,'' in 
the book Influence Warfare, edited by James J.F. Forest, (Westport: CT, 
Praeger Security International, 2009, 229-24) that I have attached, and 
the wonderful paper by Robert R. Reilly Ideas Matter: Restoring the 
Content of Public Diplomacy, Heritage Foundation Special Report No. 24, 
July 27th 2009, available at http://www.heritage.org/Research/Reports/
2009/07/Ideas-Matter-Restoring-the-Content-of-Public-Diplomacy and the 
chapter by Dr. John Lenczowski, formerly of the NSC, in the forthcoming 
book: Fighting the Ideological War: Strategies For Defeating Al Qaeda, 
from the Westminster Institute in McLean, VA.
    [The information referred to can be found in the Appendix on page 
79.]
    Mr. Thornberry. You work with and consult our Special Operations 
Forces. In your conversations with them, what are some of their larger 
concerns? Outside the major theaters of battle that are Iraq and 
Afghanistan, do they have the authorities they need to effectively 
counter terrorist threats? How can we improve?
    Dr. Gorka. The major concern I hear repeatedly from the Special 
Operations Forces I have the privilege to meet and train is two-fold. 
It concerns the lack of strategic clarity and guidance provided to 
operators and the related issue of inadequate honesty and detailed 
information on the broader aspects and characteristics of the enemy.
    Our military, SOF included, are without peer today. However, even 
the best fighting forces in the world can be squandered and misused. 
Less than a month ago I was briefing a large contingent of SOF 
operators prior to their deployment. During the Q and A session after 
my brief, one of them actually said in front of his colleagues that he 
still did not know why he was fighting this war, that no one had told 
him. This is inexcusable.
    At the same time I have been routinely informed that the kinds of 
briefings I am asked to provide--understanding the enemy, penetrating 
his strategic culture and mind-set--are very few and far between.
    Although the number of specialists able to summarize and discuss 
the religiously-driven ideology that is Global Jihad are few in number, 
they could be used more effectively, especially to `train the trainers' 
and so provide deeper understanding of Salafi Jihadism to larger 
numbers of SOF (and General Purpose Forces).
    The one message I try to leave with these brave men whenever I meet 
them is that today no-one has the luxury of being ``just a shooter,'' 
or ``just an analyst'' or strategist. The enemy is made up of 
multitasking operator/thinkers. We must be the same. However excellent 
our SOF are on the range and in tactical operations in theater, they 
must also be able to understand the enemy and how he thinks. This dual 
capacity is crucial to victory against any irregular enemy threat 
group.
    As to Title Ten versus Title Fifty authorities, I am less concerned 
by the question of legal mandates than of doctrinal approaches. The 
United States will in the future be faced more often by irregular 
threats than conventional ones. The data of the last decades makes this 
incontrovertible. Nevertheless, we cannot become involved in CT/COIN 
operations all across the globe, at least not in the way we have 
executed them in IRQ and AFG.
    An objective study of Irregular Warfare campaigns of the last 
century demonstrates that the odds are against large-scale foreign 
interventions. We have seen much greater success in theatres where we 
use a ``small-footprint'' approach to the employment of Special 
Operations Forces. El Salvador is the quintessential example. Despite, 
or rather because of, the congressionally mandated cap of 50 US 
advisers at any one time being deployed to that country, we truly stuck 
to the Special Operations mantra of ``by, with and through,'' a guiding 
principle we have all too often ignored in the last 10 years 
(especially in Afghanistan).
    Therefore, authorities are less of an issue than is our doctrinal 
(and strategic) approach.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Former detainees are actively speaking out about their 
experiences at Guantanamo, airing grievances and allegations of 
mistreatment in an effort to promote the jihadist cause. Uthman al-
Ghamdi's memoir in Inspire magazine is an example of al-Qai'da's latest 
propaganda strategy. Is this messaging campaign having a measurable 
impact, either on new recruits, or encouraging other former detainees 
to return to the fight?
    Mr. Bergen. [The information was not available at the time of 
printing.]
    Mr. Wittman. As we consider the question, ``What does today's 
threat look like,'' I am interested in better understanding how GTMO 
detainees factor into this equation. For example, it is well known that 
two former detainees currently hold leadership positions in AQAP in 
Yemen. Can you address this issue and discuss how such detainees impact 
the threat we currently face from a global perspective?
    Mr. Bergen. [The information was not available at the time of 
printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
